<html>
<title> - OVERSIGHT HEARING ON THE ROLE OF NATIONAL, STATE, AND COUNTY VETERANS SERVICE OFFICERS IN CLAIMS DEVELOPMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        OVERSIGHT HEARING ON THE ROLE OF 
                          NATIONAL, STATE, AND COUNTY 
                         VETERANS SERVICE OFFICERS IN 
                             CLAIMS DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON VETERANS' AFFAIRS

                         HOUSE OF REPRESENTATIVES

                      SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          
                            AND MEMORIAL AFFAIRS

                          ONE HUNDRED NINTH CONGRESS

                              SECOND SESSION
                               _____________

                               JULY 19, 2006
                               _____________

          Printed for the use of the Committee on Veterans' Affairs

                            Serial No. 109-61


                               _____________

                      U.S. GOVERNMENT PRINTING OFFICE
29-565 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 
























                    COMMITTEE ON VETERANS' AFFAIRS
                         STEVE BUYER, Indiana, Chairman

MICHAEL BILIRAKIS, Florida                LANE EVANS, Illinois, Ranking
TERRY EVERETT, Alabama                    BOB FILNER, California
CLIFF STEARNS, Florida                    LUIS V. GUTIERREZ, Illinois
DAN BURTON, Indiana                       CORRINE BROWN, Florida
JERRY MORAN, KANSAS                       VIC SNYDER, Arkansas      
RICHARD H. BAKER, Louisiana               MICHAEL H. MICHAUD, Maine
HENRY E. BROWN, Jr., South Carolina       STEPHANIE HERSETH, South    
JEFF MILLER, Florida                        Dakota                
JOHN BOOZMAN, Arkansas                    TED STRICKLAND, Ohio   
JEB BRADLEY, New Hampshire                DARLENE HOOLEY, Oregon
GINNY BROWN-WAITE, Florida                SILVESTRE REYES, Texas
MICHAEL R. TURNER, Ohio                   SHELLEY BERKLEY, Nevada
JOHN CAMPBELL, California                 TOM UDALL, New Mexico
BRIAN P. BILBRY, California               JOHN T. SALAZAR, Colorado

                     JAMES M. LARIVIERE, Staff Director



             SUBCOMMITTEE ON DISABILITY ASSISTANCE
                     AND MEMORIAL AFFAIRS

JEFF MILLER, Florida, Chairman                SHELLEY BERKLEY, Nevada,
JERRY MORAN, Kansas                             Ranking
JEB BRADLEY, New Hampshire, Vice Chairman     TOM UDALL, New Mexico
GINNY BROWN-WAITE, Florida                    LANE EVANS, Illlinois

              PAIGE MCMANUS, Subcommittee Staff Director































                           C O N T E N T S
                            July 19, 2006
                                                                   Page
Oversight Hearing on the Role of National, State, and County 
  Veterans .................................................          1

                          OPENING STATEMENTS

Chairman Miller ............................................          1
Hon. Shelley Berkley, Ranking Democratic Member ............          1
Prepared statement of Ms. Berkley ..........................         20

                         STATEMENTS FOR THE RECORD

Hon. Ginney Brown-Waite ....................................         21
Doran, James W., National Servcie Director, AMVETS .........         69
Basher, George P., Director, New York State Division of Veter-
    ans' Affairs ...........................................         75
Cullinan, Dennie M., Director, National Legislative Service, 
     Veterans of Foreign Wars of the United States .........         80

                                 WITNESSES

McPherson, Col. Warren R. USMC (Ret.), Executive Director,
 Florida Department of Veterans' Affairs  ..................          2
Prepared statement of the Col. McPherson ...................         22
Tetz, Timothy M., Executive Director, Nevada Office of Veteran
 Services  .................................................          5
Prepared statement of Mr. Tetz, ............................         34
Knowles, Ann G., President, National Association of County 
 Veterans Service Officers .................................          8
Prepared statement of Ms. Knowles ..........................         41
Violante, Joseph A., National Legislative Director, Disabled
 American Veterans  ........................................         10
Prepared statement of Mr. Violante .........................         47
Ortner, Blake C., Associate Legislative Director, Paralyzed
 Veterans of America .......................................         12
Prepared statement of Mr. Ortner ...........................         53
                
                                                                   Page
                         WITNESSES (CONTINUED)

McCoy, Jack, Associate Deputy Under Secretary for Benefits for
 Policy and Program Management, Veterans Benefits Admini-
 stration, U.S. Department of Veterans Affairs .............         20
Prepared statement of Mr. McCoy ............................         60

                       MATERIAL SUBMITTED FOR THE RECORD

Memorandum of Gift from Veterans Consultation Group, Lin-
 coln, NE., submitted by Ms. Berkley .......................         84

                    POST-HEARING QUESTIONS FOR TEH RECORD

Chairman Miller from Mr. Jack McCoy, U.S. Department of 
 Veterans Affairs ..........................................         86
Hon. Shelley Berkely from Mr. Jack McCoy, U.S. Department of
 Veterans Affairs ..........................................         89
Chairman Miller from Mr. Blake Ortner, Paralyzed Veterans of
 America ...................................................         91
Chairman Miller from Ms. Ann Knowles, National Association 
 of County Veterans Service Officers, Inc. .................         93
Chairman Miller, Joseph Violante, Disabled American Veter- 
 ans .......................................................         96



















                   OVERSIGHT HEARING ON THE ROLE OF 
                 NATIONAL, STATE, AND COUNTY VETERANS 
               SERVICE OFFICERS IN CLAIMS DEVELOPMENT
                          _________________

                        WEDNESDAY, July 19, 2006
                        
                            U.S. House of Representatives,
                             Subcommittee on Disability Assistance and
                                                    Memorial Affairs,
                                      Committee on Veterans' Affairs,
                                                    Washington, D.C.

The Subcommittee met, pursuant to call, at 1:33 p.m., in Room 334, 
Cannon House Office Building, Hon. Jeff Miller [Chairman of the 
Subcommittee] presiding.
Present:  Representatives Miller, Berkley, Udall.  Majority Staff 
Counsel: Paige McManus, Minority Staff Counsel: Mary Ellen McCarthy 
Mr. Miller.  Good afternoon, everybody.  Thanks for coming.  This 
hearing will come to order.  I also want to thank the witnesses for 
their flexibility.  I know we have changed the date and time, and let 
the record show the Chairman was late for the very first time.  We 
appreciate you being here with us today and we are going to go ahead 
and start the hearing. Ms. Berkley, our Ranking Member, is on the way, 
and other members as you well might expect will be coming in and out as 
the hearing progresses.
Under Admiral Cooper's watch the Veterans Benefits Administration has 
attempted to make the claims adjudication process more efficient by 
creating specialized teams, improving training, and hiring additional 
personnel to prepare and rate claims.  For a while, we had seen some 
improvements in timeliness and the backlog; however, those gains have 
eroded. The backlog is growing again and it is taking longer to render 
a decision.
We all know that the claims process is complex, and veterans are better 
served when they are working with someone who is trained in this area 
of the law.  Over the years, various reports from, among others, the 
Veterans Claims Adjudication Commission, the VA Inspector General, and 
the VA Claims Processing Task Force have recommended a greater role for 
veterans services organization representatives in assisting veterans 
with submitting fully developed claims.  I am not advocating today that 
VBA staff be supplanted by veterans service officers.  There are 6,000 
local, county, and State service officers who could augment VBA's 
workforce, especially since they already have the power of attorney for 
the claimant.
Today, we are going to receive testimony from veterans' representatives 
to get a better understanding of the role they play in assisting 
veterans in submitting fully developed claims so that VBA staff can 
focus on the decision-making process.  We will also hear from VBA on 
their efforts to collaborate with these organizations.  And as I said, 
Ms. Berkley will be coming in shortly to participate, and we may give 
her an opportunity if she wishes to make an opening statement at that 
time, with your indulgence.
At 2:00 o'clock today, as most of you know, there is a ceremony in the 
Capitol to commemorate VA's 75th anniversary. Therefore, without 
objection, any other opening statements that other members have will be 
submitted into the record.  I also ask the witnesses, if you would, to 
keep your remarks to five minutes.  Your full statements have been 
received by the Subcommittee, and will appear in the printed record of 
the hearing.  The first panel is already seated at the table.  We 
appreciate it.  If you give me a moment, I can introduce everybody that 
is at the table now.
Colonel Warren ``Rocky'' McPherson, is the Executive Director of the 
Florida Department of Veterans Affairs and Mr. Tim Tetz is the 
 Executive Director of the Nevada office of Veterans Services.  We 
certainly appreciate your coming to Washington to share your views with 
us.  We also have Ms. Ann Knowles, President of National Association of 
County Veterans Service Officers.  Joe Violante is here, National 
Legislative Director for DAV.  And Mr. Blake Ortner is Associate 
Legislative Director for Paralyzed Veterans of America.
So my script says ``Colonel McPherson,'' but Rocky, it is good to have 
you here, and you may proceed.


STATEMENT OF COLONEL WARREN R. MCPHERSON, USMC (RET.), EXECUTIVE 
DIRECTOR, FLORIDA DEPARTMENT OF VETERANS� AFFAIRS; TIMOTHY M. TETZ, 
EXECUTIVE DIRECTOR, NEVADA OFFICE OF VETERANS SERVICES; ANN G. KNOWLES, 
PRESIDENT, NATIONAL ASSOCIATION OF COUNTY VETERANS SERVICE OFFICERS; 
JOSEPH A. VIOLANTE, NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN 
VETERANS; AND BLAKE C. ORTNER, ASSOCIATE LEGISLATIVE DIRECTOR, 
PARALYZED VETERANS OF AMERICA 



                       STATEMENT OF COLONEL MCPHERSON

Colonel McPherson.  Mr. Chairman and members of the Subcommittee, thank 
you for your opportunity to provide comments concerning the role of 
national, State, and county veterans service officers in claims 
development.  As Governor Bush's executive director for Florida 
Department of Veterans Affairs, we meet regularly with the leaders of 
all of the State veterans service organizations, including the County 
Veterans Services Association.  In fact, I meet with their leadership 
monthly.  Also, I am served by an advisory commission of Governor's 
appointees from all regions of our State, and we meet with them 
quarterly.
Florida has almost 1.8 million veterans, as you know.  The Florida 
Department of Veterans Affairs is a State veterans' service agency 
created by the Florida legislature, following a successful citizens'
constitutional initiative to authorize our department in State 
government.  We provide information, advocacy, and quality long-term 
healthcare services to our veterans.  We maintain strong positive 
relationships with both VHA and VBA leadership in Florida.  We 
currently employ about 580 folks, and about 70 of those are performing 
service officer duties on a daily basis.   Florida continues to expand 
our facilities and our services, primarily through the growth of the 
State homes program, but also through new outreach programs to contact 
more of the veterans' population in Florida.       As a result of 
strong advocacy on behalf of veterans and their dependents, their 
economic well-being and health status is improved through the 
acquisition of all of the benefits earned through their service.  We 
are an arm of State government, which has statutory responsibilities 
concerning State benefits and citizens services, as well as providing 
service delivery responsibilities representing veterans in their 
dealings with the claims process in VBA.
Our statement for the record includes a more expansive elaboration of 
our department structure and capabilities.  I won't dwell on that.  But 
it also includes the issues that I would like to mention in this brief 
summary.  The major issues confronting our department, and other State 
veterans department as well when dealing with VBA processes, include 
the following four items.
First, is timely access to VA information on returning severely injured 
veterans, and also dealing with families of the fallen.  And I would 
note for the record that yesterday we were able to meet with VA Central 
office senior staff on this issue to work on moving forward.  We also 
have a concern about timely access to case files of veterans when they 
seek State assistance on Federal issues.  There are issues in the 
privacy world that need to be resolved so that if a constituent calls 
your office or mine, I need to be able to get to the data to help solve 
that problem.
We are working on a program designed by Governor Bush to look at 
long-term follow-up on State veterans' benefits, and also benefits for 
the families of those lost in battle.  Florida has a substantive set of 
State benefits that augment the Federal benefits system, and in order 
to implement that kind of a program for the long term, we need good 
data on who these folks are, and we are working with the VA on those 
privacy issues. We also note that there has been a national issue 
regarding training and standardization of veterans' service officers at 
the State and county level, and I would note that that is a key issue, 
that if efforts are put forth to standardize the training, it can help 
with the types of claims that you are looking for; fully-developed, 
ready-to-rate claims.
We note that House Resolution 4264 regarding proposed Federal funding 
of State and county service officers in the VA budget is an initiative 
that is under consideration, and the State of Florida would certainly 
support that.  We think it would provide valuable additional resources 
for us, and that of course is a part of outreach enhancement 
opportunities, and we would focus especially on returning veterans with 
serious injuries.
Each of these topics contain policy issues that must be developed and 
improved in order to allow State and local government service as an 
extension of VA programs that already provide more extensive and higher 
quality services to our nation's veterans than any other country in the 
world.
The VA is a terrific organization, but as we all know, primarily 
because of the huge numbers of veterans who have served, their 
workload, the VA's, in many areas is constantly challenged by resource 
availability, and many of the policies which have evolved over 75 years 
of growth in service.
As I mentioned, our primary challenge is timely access to VA 
information concerning veterans.  As described in our written 
statement, improved flow of information to State government is needed, 
and is vital to improving the timely delivery of State benefits to 
these warriors and families.  A method must be developed to allow 
increased and more timely access to this critical data, and we are 
working on that with the VA and DoD.
The final challenge I would like to address just for a moment is the 
enhanced outreach to veterans, particularly in the large states, where 
the largest population is.  I mentioned Florida has almost 1.8 million 
veterans, and it deserves focused attention, additional outreach 
efforts, and additional national resources, to meet the continuing 
demands of our older World War II and Korean veterans, but also our 
newest generation from the Global War on Terror.  The Federal efforts 
to coordinate seamless transition of injured servicemembers from DoD to 
VA is improving, and it is actually quite good. But the State and local 
government role in providing and administering State veterans benefits 
must be understood, and policy adjustments must be made to enhance a 
cooperative effort to deliver the best support our nation can, for all 
levels of government.
Governor Bush's letter to Secretary Nicholson on this topic is in our 
written remarks.  I would like to thank you for the opportunity to be 
here today representing Governor Bush and our 1.8 million veterans, and 
we appreciate your Committee's continuing efforts to improve benefits 
and services to our veterans, and certainly would be available to take 
any questions, sir.
[The statement of Colonel McPherson appears on p.  ] 

**********INSERT**********
Mr. Miller.  Thank you very much, Colonel.  Mr. Tetz?


                          STATEMENT OF TIMOTHY M. TETZ

Mr. Tetz.  Chairman Miller and members of the Subcommittee, thank you 
for this opportunity to present the role of the Nevada Office of 
Veterans' Services in veteran claim development.
Veterans' advocacy in its most simple form doesn't vary between 
Florida, North Carolina, or Nevada.  At the end of the day, every 
advocate in a veterans service organization, county service office, or 
State agency such as NOVS, desires to help every veteran receive all 
individual benefits and opportunities earned by their honorable 
military service to this country.
In its most basic form, a veterans advocate is someone who cares about 
veterans and supports their causes.  This broad representation of a 
veterans advocate could include everyone from the World War II 
veteran's grandchild, to a radio talk show host, to a member of 
Congress.  With respect to the claims process, through the Department 
of Veterans Affairs, the veterans advocate takes a greater role and 
responsibility; it's advocate's obligation to present the veteran and 
his or her claim in the most succinct, accurate, and complete manner, 
so the VA ratings officer has a complete package on which to base a 
decision.
Veterans advocacy through the claims process has five distinct steps.  
First, the service officer must work directly with the veteran or 
family to identify all the possible benefits the claimant may be 
entitled.  This often involves hours of interviewing and analysis of 
medical and military records to ascertain the status of the veteran's 
health or financial situation.  Next, the service officer must 
determine if additional records, tests, or materials are necessary to 
establish the facts or conditions presented by the veteran.
Then, the service officer must take great care to present the veteran 
in a concise but complete package that identifies all the benefits for 
which the veteran is entitled.  This package must be sufficient to 
persuade the rating specialist to grant the claim.  Once the decision 
has been rendered it is incumbent upon the advocate to explain the 
results to the veteran and determine if additional actions are 
necessary.
It is only once the veteran and advocate have exhausted all avenues of 
review that the case can be set aside for this final step.  Often 
overlooked, the final step is a periodic evaluation with the veteran to 
determine if medical or financial conditions warrant the claim to be 
reopened.
However the role of NOVS doesn't start with the veteran walking through 
our door.  It begins long before, in our attempts to educate the public 
and veterans on services we offer and the benefits they have earned.  
Although the veteran may not realize how military service ultimately 
affected their health, talking about wounds or injuries has never been 
something people hide.  For example, when one veteran receives 
compensation for agent orange exposure and resulting conditions caused 
by it, every other veteran he runs across is quickly informed of 
conditions that may be caused by exposure or service, and urged to 
follow the appropriate claim.
In contrast, financial status or well-being is not often discussed 
outside of family.  This coupled with an overwhelming pride not to take 
advantage of programs such as welfare brings about the relative 
obscurity of the VA pension benefits.  In 2005 Knight Ridder published 
an article based on the Sanford Center for Aging study of low income 
veterans in Reno, Nevada. In short, an estimated 2 million veterans or 
widows are missing out on as much as $22 billion a year in VA pensions.  
The primary reason is lack of public awareness of the program. While 
the estimated population of veterans and widows eligible for the 
benefit has remained the same, benefits have decreased at a dramatic 
rate.
Once a veteran enters, or the veteran's family enters our office, it is 
our responsibility to determine eligibility for compensation, pension, 
and other benefits through the VA.  Like all our counterparts 
throughout the nation, we must develop the case, review the pertinent 
information, and prepare a claim for the veteran to submit.  However, 
at this juncture we differ from our counterparts at the county level in 
that we are located in a regional office and approve and submit all the 
veterans advocates for benefits.  Located within the same building, we 
are often able to facilitate the compilation of additional information 
when it is necessary, thereby limiting the longer waiting times than 
would be associated if we needed to send it to a local office.  In 
addition, we receive our complimentary copy of the notice of decision 
for our records, so that we can be proactive in reviewing the decision 
and determining a course of action before the veteran has received the 
same letter.      Unfortunately, with these spoils comes some added 
burden.  If a veterans submits a claim for composition and lists one of 
our 14 service organizations as a limited power of attorney, we are 
obligated to serve that veteran once a notice of decision has been 
issued.  Through this, we inherit many claims we did not initially 
develop, and did not submit to our standards, but must somehow maintain 
the necessary information and data to reverse the original decision.  
This is often more time-consuming than the establishment and 
development of the case from the beginning.  I estimate I lose one of 
my six service officers entirely to the appeal process.
Our biggest challenge in Nevada is to serve the approximate 300,000 
veterans in Nevada with only six service officers.  Even if you look at 
the veterans' service organizations and their accredited service 
officers, there are still more than 10,000 veterans in Nevada for each 
qualified service officer.  It is not uncommon for a veteran to have to 
wait four to six weeks to meet with a service officer.  If you couple 
this with a six-month wait for a decision at the regional office, the 
veteran lucky enough to walk into our office today may not receive a 
decision on the claim for a year.  This may not seem like a long time 
to the 21 year-old returning from Afghanistan, but it is an eternity to 
a Korean War veteran dying of a service-connected medical condition.
And in conclusion, if I were to clear the room and ask if anyone knew 
Jack Prelutsky, I am almost certain no one would recognize the name.  
However, asked the same question about Dr. Seuss, most of us could list 
our favorite book and tell you why they don't like green eggs and ham.  
But Jack Prelutsky was responsible for taking the notes, sketches, and 
thoughts of Theodore "Dr. Seuss" Geisel, and compiling them into a 
highly acclaimed book that few knew was not written by Dr. Seuss.  If 
Jack Prelutsky had written `` Hooray for Diffendoofer Day''  and put 
his name on the cover, he would have been ridiculed as a fraud and sold 
very few books.  But the same compilation of words and thoughts became 
a bestseller when associated with Dr. Seuss, even though he passed away 
seven years prior.
The service officer is a ghost writer of the veteran's claim before the 
VA.  It is the service officer's job to take a veteran's service 
record, medical history, personal recollections, and current medical 
conditions, and weave a story that characterizes the veteran for the VA 
rating specialist.  The veterans service officer must take all the 
resources and develop a package that will become a bestseller. Although 
in this case, the satisfaction will not come from critical acclaim in 
the New York Times, but rather the compensation and pension for the 
veteran or family by the VA. In most cases, the rating specialist may 
never even talk to or meet the veteran.  But if the service officer is 
successful, the veteran is as well known to the rating officer as the 
``Grinch Who Stole Christmas.''
Again, thank you, Mr. Chairman, for giving Nevada Office of Veteran 
Services an opportunity to present our perspective on such an important 
issue.  This hearing is very timely and addresses an ongoing need to 
service the veterans throughout America.  We look forward to working 
with the Subcommittee to see that no veteran goes without qualified 
representation.
[The statement of Timothy M. Tetz appears on p.  ] 

**********INSERT**********
Mr. Miller.  Thank you very much.  Ms. Knowles.


                         STATEMENT OF ANNE G. KNOWLES

Ms. Knowles.  Mr. Chairman and members of the Committee, it is truly my 
honor to be able to present this testimony before your committee.  As 
president of the National Association of County Veterans Service 
Officers, I am commenting on the relationship between the Department of 
Veterans Affairs and the county veterans service officer, 
recommendation of the creation of a new Federal, State, and local 
government partnership to provide outreach to veterans and their 
dependents to assist in filing their claims for disability and pension 
benefits.
The National Association of County Veterans Service Officers is an 
organization made up of local government employees.  Our members are 
tasked with assisting veterans in developing and processing their 
claims.  We exist to serve veterans and partner with the national 
service organizations, and the Department of Veterans Affairs to 
serve veterans.
Our association focuses on outreach, standardized quality training, 
claims processing.  We are an extension, an arm of government, not 
unlike the VA itself, in service to the nation's veterans and their 
dependents.  The relationship between the Department of Veterans 
Affairs and the county service officers throughout our great nation has 
traditionally been professional, mutually advantageous.  The DVA has 
assisted the CVSOs in providing limited training and providing limited 
access to information to DAV the DVA holds on the CVSO's clients.
By a large majority of disability of pension claims, the county service 
officer serves as the primary entry point nationwide for local veterans 
to access the services offered by the VA.  Most veterans view the local 
county service officer as the VA, and they do not realize that the VA 
and the CVSO are not one in the same.  And in many ways, we are the VA 
to our communities.  We see the role of the county veterans service 
office as one of advocacy.  We sit across the table daily and prepare 
these claims.  We are the ones that cry with the widows, and pat the 
veterans on the backs.  Because of this direct access to the veterans, 
we believe that we are in a position to assist the VA in the claims 
development, developing and completing ready-to-rate claims.  It eases 
the burden of the VA, the backlog of inventory, whatever we call it.
The process begins with that face-to-face, and it builds the trust 
between the veterans and the VA because as I said, they view us as the 
VA, and we can tell them ten dozen times a day we are not the VA, but 
we are to them, because we are the one they are helping.
The initial interview accomplishes many things.  The CVSO honestly 
explains the process with the veteran while building realistic 
expectations for the veteran.  This results in lessening the impact 
of previous claims or unrealistic appeals that the VA is mandated to 
process and develop.  Once complete, the application package is then 
passed on to the State or the national service organization for their 
review and presentation to the VA, and then they in return send it back 
to us if they have more questions.  It is truly a partnership.
The CVSO then interprets the decision for the veteran and explains what 
the decision means when the veteran gets his rating decision back.  
Many of them go home and they read those eight or ten pages, and they 
come back and say, `` Tell me what it means,''  and that is what we are 
there for, is to tell them what it means, and where we can go further; 
if they have had a negative decision, if we truly have an appeal, and 
how to truly help them get this appeal established.
We believe the division of responsibility between the two arms of 
government benefits the veteran, the CVSO, and the DVA, as potential to 
provide a clear understanding for the veteran, of the process of claims 
development, and how the VA system works.  I will not go into a lot of 
detail on our outreach.  It is published for you.  The VA does have 
limited outreach.  They do go to the hospitals, they advertise in the 
organizations, but the county service officer or the State service 
officer are on the front line.  We are looking for those veterans that 
don't know that they have benefits.  They don't go to the hospitals.  
They don't belong to the service organization.
That is where your outreach is needed, to those veterans that don't 
know, those veterans coming back that don't want any part of anything.
I thank you for your opportunity to provide this testimony.  I invite 
any questions.  I know we are very limited, so I will hold it down.  
And thank you so much.
[The statement of Ann G. Knowles appears on p. ] 

**********INSERT**********
Mr. Miller.  Thank you very much, Ms. Knowles. I would like to 
recognize the Ranking Member Ms. Berkley.  Ms. Berkley?
Ms. Berkley.  Thank you very much, Mr. Chairman, and please accept my 
apologies for being detained in my Transportation Committee hearing.  
We had a markup on an important issue regarding pipeline safety in this 
country, and I thought it was important that I share my thoughts with 
my fellow committee members.
I want to welcome all of you.  Your testimony is very important to 
this Subcommittee, and our understanding of exactly what you do and how 
it affects and benefits our veterans.  A particular welcome to Mr. 
Tetz, from my home State of Nevada.  We work very closely together.  He 
does an extraordinary job.  I invited him, and I hope this has been a 
positive experience for you.
I am going to submit my comments for the record.  I would like to 
commend Mr. Tetz' testimony, and I am sure all of you that heard him 
know that in the State of Nevada, which is a very large State with a 
lot of area, we not only have hundreds of thousands of veterans in the 
Las Vegas metropolitan area, but we have veterans across the State of 
Nevada in small towns and hamlets, sometimes very far away from any VA 
service, and it is very important for them to be able to access our VA 
services.  There is, for every 10,000 veterans, we have one service 
officer in Nevada, and many veterans are simply unable to access a 
veterans service officer.
We know that if a veteran is able to access the help of a service 
officer, it could often make the difference between having a claim 
denied and having a claim approved, or the amount of the claim.  And we 
also know statistically, that it is a little more than $6,000 
difference between a veteran who has had the help of a service officer 
and one that has not.  So what you do is extraordinarily important.
And I think it is important for the Subcommittee, and ultimately the 
entire VA committee, to learn about what you do. So thank you very 
much, and I thank you for your efforts in helping our veterans access 
the VA system.
[The statement of Ms. Berkley appears on p. ]

**********INSERT**********
Mr. Miller.  Thank you, Ms. Berkley.  Your statement will be included 
in the record in its entirely.
Mr. Violante?


                      STATEMENT OF JOSEPH A. VIOLANTE

Mr. Violante.  Thank you, Mr. Chairman, and members of the 
Subcommittee.  On behalf of the more than 1.3 million members of the 
Disabled American Veterans, I am honored to appear before you today to 
discuss the role of DAV's national service officers in our effort to 
assist veterans and their families an filing claims for benefit from 
the Department of Veterans Affairs.  DAV has several classifications of 
our accredited representatives: department service officers, transition 
service officers, national service officers, national appeals officers, 
and appellate counsel.
DAV hires only wartime service-connected disabled veterans for 
positions of DAV NSO trainees.  These men and women have had personal 
experience with the VA claims process, and the vocational 
rehabilitation program.  The initial training program generally does 
not exceed 25 months, of which 16 months is on-the-job training.  Each 
individual also receives academic instruction through an accredited 
college or university in anatomy and physiology, medical terminology, 
composition or legal writing, and public speaking.
Successful completion of a compensation and pension service TRIP 
certification training is mandatory for all NSOs. The DAV structured 
and continuing training program is designed for use by all NSOs.  
Recognized by the highly regarded American Council on Education, the 
DAV's course of study uses the latest technology to provide almost 1200 
hours of updates and refresher training to enhance the NSO's base 
knowledge.  I have provided two copies of our CD-ROM library to the 
Subcommittee staff.
Mr. Chairman, for 86 years the DAV has been dedicated to one single 
purpose: Building better lives for disabled veterans and their 
families.  The DAV employs 260 NSOs, located throughout the country.  
Last year alone, these highly trained men and women represented, free 
of charge, over a quarter million veterans and their families in claims 
for VA benefits, obtaining for them more than $2.7 billion in benefits.
Of the 34,000 appeals decisions decided by BVA during 2005, 11,000 
appeals were represented by DAV NSOs.  During the period, the average 
BVA allowance rate among veterans service organizations was 21.7 
percent.  The allowance rate for attorneys was 21.1 percent.  During 
2005, DAV represented about 2500 appeals that were allowed by VBA, or 
22 percent of our represented appeals. In another 4400 appeals, or 39.2 
percent, the appeal was remanded to the agency of original 
jurisdiction. DAV-represented appeals were higher than the overall 
averages for allowances: 20.8 percent, and remands, 38.6 percent.
Average allowance rates among veterans service organizations are again 
higher than allowance rates for attorneys thus far in 2006.  With a 
21.3 percent allowance rate, as of the end of April 2006, attorneys are 
below the overall average BVA allowance rate for all appeals, including 
those with no representation, of 21.6 percent.
DAV's appellate counsels filed 374 notice of appeals with the Court of 
Veterans Appeals between May 2005 and April 2006. During this period, 
the court disposed of 433 appeals filed by DAV.  Of these, 291 appeals 
were reversed, vacated, or favorably settled.  There were joint motions 
for remands in 126 appeals, and only 16 appeals were affirmed by the 
court.
Several years ago, DAV undertook two additional initiatives to enhance 
and expand benefits counseling and claims representation services to 
the veterans community.  The first of the two programs involve outreach 
to members of the armed services at locations and times of their 
separation from active-duty.  The second involves services to veterans 
in the communities where they live.  I am very proud of what DAV stands 
for and what we have accomplished in our 86-year history.
I thank you for this opportunity to submit our views on this important 
issue, and I would be happy to answer questions. Thank you.
[The statement of Joseph A. Violante appears on p.  ] 

**********INSERT**********
Mr. Miller.  Thank you very much.  Mr. Ortner?


                      STATEMENT OF BLAKE C. ORTNER

Mr. Ortner.  Chairman Miller, Ranking Member Berkley, and members of 
the Subcommittee, on behalf of the Paralyzed Veterans of America, I 
would like to thank you for the opportunity to testify today on the 
role of national, State, and county veterans service officers in claims 
development.
Through 60 years of service, PVA has developed a unique expertise on a 
wide variety of issues involving the special needs of our members, 
veterans with spinal cord injury and dysfunction.  One of the services 
PVA provides is assistance to veterans as they navigate the maze of 
rules and regulations associated with submitting claims for veterans 
benefits and compensation.  This is done through PVA's veterans 
benefits department, which provides assistance and representation, at 
no cost, to veterans seeking healthcare and benefits.
This assistance is offered through a network of 58 service offices 
located at VA medical centers and regional offices, and 76 PVA-employed 
national service officers, or NSOs, many of whom are spinal 
cord-injured.
In 2005 our NSOs conducted more than 23,000 counseling sessions, 
serving more than 20,000 paralyzed veterans and their families, 
provided assistance to over 12,000 more severely disabled veterans, and 
their families and survivors, and conducted more than 15,000 visits to 
paralyzed veterans in hospitals and nursing homes, logging more than 
206,000 road miles.
There are many veterans service programs across the nation.  VA sets 
requirements for organizations to be approved to provide assistance to 
veterans, and these regulations contain sufficient requirements for 
organizations to meet, but only if they actually comply with the 
regulations.  If VA does not ensure requirements are met, then veterans 
may receive inadequate assistance.  While PVA exceeds all the 
requirements, variances in levels of training and competence of other 
veterans representatives, including State and county veterans service 
officers, can be extreme.
Training is the other key.  PVA is concerned about accuracy in claims, 
and emphasizes extensive training of our service officers while taking 
great pride in our rigorous training program.  New service officers 
undergo a 16-month on- the-job training program.  Each candidate is 
paired with an experienced NSO supervisor at a VA medical center or 
regional office.  Throughout the training program candidates take 
courses to improve medical knowledge, as well as gain ever greater 
exposure to actual casework, learning relevant Federal relations, 
codes, and how to prepare a claim.
The candidate must pass a series of quizzes and exams during the 
program, and to be certified as an NSO II,  must pass a comprehensive 
final exam.  The NSO takes a more extensive exam after 18 months, to be 
promoted to NSO III, and after a second 18 months, takes an exam to be 
promoted to senior NSO.  We believe that our standardized training is a 
vital component to the success of this program.
But NSO training does not end there.  PVA conducts ongoing regional 
training, as well as participation in VA training at the local level, 
permitting valuable interaction with VA claims processors.  NSOs also 
complete the VA training, responsibility, involvement, and preparation 
program, annual cyber security training, and 28 hours of annual 
national service officers' continuing education program training.
PVA'S NSO program assigns NSOs to VA medical centers with spinal cord 
injury centers, then to areas with a high population of our members or 
other veterans.  This system is most effective because it is maintained 
and supervised at the national level, which provides important 
uniformity and speedy dissemination of vital information.
PVA does not limit our training.  If requested, we will provide 
training to other local, State, and county veterans service officers in 
any field that the office believes they may need.  This provides 
information and ensures a level of consistency with claims preparation.  
Even with training, other challenges face veterans as they weave their 
way through the maze of claims preparation.
One challenge is that many county service officers are political 
appointees, often required to justify their existence, and their 
budgets, by the number of claims filed. PVA believes that many of these 
claims are submitted without regard to merit.  This clogs the VA system 
and may discredit claims coming from those offices.  This is such a 
concern that in May 2006, the commitment was made by PVA, the American 
Legion, Disabled American Veterans, and Amvets, to support training for 
State and county VSOs.  This would go a long way to increase 
professionalism and consistency of claims preparation, and would be a 
tremendous service to those veterans who have served the nation so 
well.
Another challenge is a lack of appeals representation at the national 
level for county and State VSOs, which hinders a claimant's opportunity 
to succeed at the appellate level. Because of the significant number of 
errors in VA claims, this can create an almost insurmountable roadblock 
to a veteran's claim being granted.
Thousands of American veterans benefit every day from the programs 
provided by veterans service organizations.  The critical requirement 
is training.  Without an adequate level of initial training, follow-up 
training, and appropriate oversight and accreditation of VSOs by VA, a 
valuable service for veterans can potentially cause more delay, rather 
than shorten the time needed for claims processing.
PVA would like to thank you again for the opportunity to testify, and 
we would be happy to answer any questions that you might have.
[The statement of Blake C. Ortner appears on p. ] 

**********INSERT**********
Mr. Miller.  I thank you all very much for your testimony.  I have some 
questions, but I will submit them for the record in view of the time 
that we have, and I will yield to our Ranking Member, Ms. Berkley.
Ms. Berkley.  Thank you, Mr. Chairman, for your courtesy.  I know that 
many people are going to the ceremony commemorating the 75th 
anniversary of the Veterans Administration, which starts in a few 
minutes, so I will try to be very brief.  But I do have three 
questions.
The Committee has received a report of at least one county veterans 
service officer who refers claims to attorneys and agents, who agree to 
represent the veteran without charge, obviously, but who then solicits 
gifts from the veterans who are rewarded benefits.  And I would like to 
submit for the record, Mr. Chairman, a memo of gift that I have in my 
possession, that a veteran has signed, giving $16,000 to an attorney 
for having handled his case, although it is not called a fee; it is a 
``gift.''
Can you comment on this practice?  I don't know if this is an isolated 
 incident, whether it is one person in Nebraska or whether this is 
widespread, whether you have heard rumors of it.  But can you tell me 
if this is something that you have heard of before?  And what ethical 
rules govern county service officers? And anybody and everyone can 
answer this.
Mr. Miller.  Prior to the witnesses answering, are you asking this be 
entered in the record?
Ms. Berkley.  Yes.  Yes, sir.
Mr. Miller.  Any objection?
(No response.)
Mr. Miller.  Without objection, so ordered.
[The attachment appears on p. ]

**********INSERT**********
Mr. Miller.  The witnesses may answer the question.
Ms. Knowles.  I would like to first take a stab at this as I represent 
the county veterans service officers.  This just came to our attention 
last month in Reno, and we do not support this.  We think that veterans 
deserve free representation from the county service officers and the 
service organizations in their counties, and in their states.  I 
understand there is a big push to get this through, to get it where 
they can.  And we are very opposed to that.
We do not think veterans should have to pay.  They have already paid 
their dues.  Now we need to represent them with nothing, with no 
charge.  And for county veterans service officers, we are opposed to 
this.  And in my own State, we had people that have started this, and 
we were able to squash them.
Ms. Berkley.  Okay.  Do you think that this is something that Veterans 
Service Officers Association can handle on their own without 
congressional intervention?  This really is horrible.
Ms. Knowles.   Absolutely not.  We cannot handle this on our own, 
because this group in Nebraska is going forward with it.  It is going 
to have to be looked at on a national level. Lawyers should not come 
into the play with handling claims for veterans until we hit the 
appeals.  The veterans should have the opportunity to handle their 
claim on a local level.  And when it goes to the appeals, absolutely, 
but up until then I think the veteran can receive and should be able to 
receive the claims without cost.
Ms. Berkley.  I couldn't agree with you more.  This was breathtaking 
when I read it, and shameful, quite frankly.
Second question: according to Mr. Tetz, Nevada, as I mentioned in my 
statementas well, has only one service officer for every 10,000 
veterans.  Is access to veterans service officers a problem in other 
areas of the country?  What is your personal experience in your own 
states?
Ms. Knowles.  In North Carolina it is not.  In dealing with our service 
officers across the State, we knew that Nevada had a large veteran 
population and very few, and I am sure that is something that you are 
looking at, to help put more money there for them to hire more service 
officers.  But I don't think it is --  I am not sure how many states 
are like yours. Tim, do you know?
Mr. Tetz.  Well, I am sure none are.  But with the population 
explosion, in Nevada particularly, in my part of the State, it is 
almost un-handle-able.  And I was wondering how, what it is like in 
your particular states?
Colonel McPherson.  Madam, Chairman, Rocky McPherson from Florida.  In 
our department, I have approximately almost 600 employees.  About one 
sixth, about 100 of those are in the State veterans service officer 
business.  I would note, though, for the record, I think it is import 
that even though there are 10,000 veterans per service officer, not 
every veteran had a service-connected injury, and requires work on 
submitting a claim.  Matter of fact, the percentage is probably --  I 
would ask the VA for a number, but I would say it is 20 percent or 
less. And so, that particular statistic needs to bear in mind the 
number of veterans in need of preparing claims, rather than the total 
number.
Ms. Berkley.  Mr. Tetz, would you like to comment?  How are things in 
Nevada?
Mr. Tetz.  Madam, Chair, Tim Tetz from Nevada Office of Veterans 
Services.  It is tough in Nevada, with the six service officers that we 
pay.  I would agree, certainly, with my director from Florida that not 
every one of those 10,000 need it.  But I would also argue that if we 
don't have adequate representation of service officers out there, and 
you can't get the word out and service as many of those 10,000, then 
you miss out on claims and the ability to get them the right care they 
need.
Ms. Berkley.  How many service officers would it take in the State of 
Nevada to handle the load you have, since you have six?
Mr. Tetz.  Ma'am, the next legislative session I am going to be asking 
for an additional six, to spread throughout the rural areas mostly.  We 
have an unfortunate scenario, where they had to travel 400 miles to see 
the nearest service officer; unheard of in other states, and yet for 
Navadans, they don't think anything of it.
Ms. Berkley.  And one last question if I may, knowing the shortness of 
time.
Mr. Ortner, I reviewed your testimony, and it seemed in your testimony 
you said problems can arise when a veteran is represented by county or 
State veterans service officer that does not handle appeals to the 
board.  How common is this problem, and what procedures exist, to your 
knowledge, to assure veterans with meritorious appeals that they will 
be represented on appeal to the board, and the court?
Mr. Ortner.  I think the main issue is just the problem with the way 
the system is set up for their inability to actually just do the 
appellate process.  I would ask to have the question submitted for the 
record, so that I could take it to our veterans benefits department 
that deals specifically with that sort of issue, to make sure that we 
can give you the most detail on exactly what would be the best process 
to remedy that.
Ms. Berkley.  Mr. Chairman, may I submit that question?
Mr. Miller.  It will be submitted.
Ms. Berkley.  All right, thank you very much, Mr. Chairman.  Thank you, 
 witnesses.
Mr. Miller.  Mr. Udall?
Mr. Udall.   Thank you, Mr. Chairman. I would just submit my statement 
for the record, and not have any questions, and submit any for the 
record from the witnesses.  Thank you very much.
[No statement was submitted.]
Mr. Miller.  Thank you very much to everybody here for their testimony 
today, and this panel is excused.
And we have a second panel to come forward.  As he comes forward, I 
will introduce him.  Mr. Jack McCoy is Associate Deputy Under Secretary 
for Policy and Program Management at the Veterans Benefits 
Administration.  He is accompanied by Mr. Steve Simmons, Deputy 
Director of the Compensation and Pension Service.  We appreciate you 
being here today, and Mr. McCoy, if you are ready, you may begin.

STATEMENT OF JACK MCCOY, ASSOCIATE DEPUTY UNDER SECRETARY FOR BENEFITS 
FOR POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS ADMINISTRATION, 
U.S. DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY STEVE SIMMONS, 
DEPUTY DIRECTOR, COMPENSATION AND PENSION SERVICE 

Mr. McCoy.  Chairman Miller, Ranking Member Berkely, and members of the 
Subcommittee, thank you for the opportunity to testify today on the 
role of national, State, and county veterans service officers in the 
disability claims process.  I am accompanied today by Mr. Steve 
Simmons, Deputy Director of the Compensation and Pension Service.
Veterans Service Officers work in partnership with VA to assist 
veterans, their dependents, and their survivors in obtaining VA 
benefits to which they are entitled.  Congress traditionally chartered 
Veterans Service Organizations but today that authority has been 
delegated to the Secretary of Veterans Affairs.  VA currently 
recognizes 87 veterans service organizations, including 26 national 
organizations, 45 State organizations, and five territorial agencies, 
as well as 11 regional or local organizations.
In order to be recognized by VA as a Veterans Service Officer, an 
organization must have as its primary purpose a substantial service 
commitment to veterans.  It must also be able to demonstrate this 
either by either having a sizable organizational membership, or by 
performing services for a sizable number of veterans.
Recognizing Veterans Service Organizations allows representatives of 
the organization to apply for accreditation to represent the interest 
of claimants in the processing their benefits claims.  A Veterans 
Service Organization must file an application for accreditation with 
the Office of General Counsel for each person it desires to have 
accredited. The organization must certify that the applicant is of good 
character and reputation, and has demonstrated an ability to represent 
claimants before VA; has completed a course of training and an 
examination which has been approved by VA's regional counsel with 
jurisdiction for the State; understands and will respect the 
confidentiality of veterans' information; and will receive either 
regular supervision and monitoring or annual training to ensure 
continued qualification as a representative in the VA claims process.
Veterans service officers and State accredited representatives help 
claimants prepare claim forms and assemble relevant information and 
evidence for presentation to VA to substantiate claims.  They 
personally contact veterans to expedite the gathering of necessary 
evidence, such as private medical records or employment background.  
Because of their knowledge of VA requirements and processes, they can 
ensure that their clients have the documentation needed before a claim 
is filed, which saves a great deal of time and effort in VA's 
 processing of the claim.  Their knowledge of the law helps ensure that 
claims submitted to VA meet the requirements for service connection, or 
for the grant of the particular benefits sought, and all that relevant 
evidence is submitted for consideration.
As part of their responsibilities as representatives for veterans and 
dependence, Veterans Service Organizations and State and local 
government veterans agencies participate in outreach and other 
activities that support the claims process by making veterans and 
dependents aware of changes in the law, and other significant events 
that may impact their eligibility for benefits.  These efforts 
complement those of the Department and ensure that, to the maximum 
extent possible, the veteran community is aware of changes in VA 
entitlement.
They assist VA with claims development through their active role in the 
Benefits Delivery at Discharge Program. The Benefits Delivery at 
Discharge Program is a cooperative effort of both VA and DoD, wherein 
VA personnel assist servicemembers leaving military service to obtain 
the VA benefits they earned.  A number of our BDD operations are 
supported by the efforts of national, State, and county Veterans 
Service Officers.  The role of the Veterans Service Officer and State 
and local government veteran agencies and the BDD --  complementary to 
that of veterans service center personnel.  They support VA efforts by 
sponsoring classes on how to complete VA claims forms, interviewing and 
assisting individual servicemembers with filing claims for VA benefits, 
including reviewing their service medical records and obtaining proper 
documents needed for VA claims adjudication.
In 1998, VBA began the Training Responsibility Involvement and 
Preparation of Claims Program, known as TRIP.  Today, all 57 regional 
offices have successfully provided TRIP instruction to Veterans Service 
Organizations' representatives.  TRIP includes extensive training in 
claims development that helps veterans service officers submit their 
fully developed claims, so that VA can decide claims in a more timely 
manner.
When a Veterans Service Organization representative completes TRIP 
training and passes a VBA-administered examination, he or she is 
qualified to access VBA's electronic records of veterans for whom he or 
she has power of attorney.  To date, 1661 Veterans Service Organization 
representatives have completed and passed the TRIP training.
And I would summarize, Mr. Chairman, by saying that I hope this 
testimony has demonstrated the important collaborative relationship 
between VBA and the national, State, and county service officers in 
VA's claims adjudication process.
Mr. Chairman, this completes my statement.  I will be happy to answer 
any questions.
[The statement of Jack McCoy appears on p. ] 

**********INSERT**********
Mr. Miller.  Thank you very much, Mr. McCoy.  I will submit my 
questions for the record.
Ms. Berkley?
Ms. Berkley.  In light of the ceremony awaiting us, I will also submit 
two questions for review and answer.  Thank you very much.
Mr. Miller.  Mr. Udall?
Mr. Udall.   I would do the same.  Thank you, Mr. Chairman.
Mr. Miller.  Thank you very much.  And thank you for waiting, Mr. 
McCoy.  Obviously, you know, we are trying to make the ceremony in the 
Rotunda, but I think it is safe to say that in the end we all want the 
same thing - we want the system to work for those who were injured in 
service to our country.  The experience and dedication exhibited by 
State, county and national service officers needs to be harnessed, thus 
bringing true meaning to the VA service officer partnership.
Without objection, statements from Mr. James Doran of AMVETS, Mr. 
Dennis Cullinan of the Veterans of Foreign Wars, and Mr. George Basher 
of the New York Department of Veterans Affairs will be entered into the 
record.
[The attachments appear on p. ]

**********INSERT**********
Mr. Miller.  Members will have five legislative days to submit material 
for the record as well as post-hearing questions to the witnesses.  
With nothing further, this hearing is adjourned.
[Whereupon, at 1:54 p.m. the Subcommittee was adjourned.]

</pre></body></html>
